  DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


                        Letter Report:

   Immigration Enforcement Agent Position




                                                  Office of Inspector General
    Office of Inspections and SpecialOffice
                                       Reviews
                                            of Inspector General

                                                  U.S. Department of Homeland
                                                  Security

OIG-05-24                                               June 2005
                                                                            Office of Inspector General

                                                                            U.S. Department of Homeland Security
                                                                            Washington, DC 20528




                                                   June 10, 2005

MEMORANDUM TO:                        Randy Beardsworth
                                      Acting Under Secretary
                                      Border and Transportation Security


FROM:                                 Richard L. Skinner
                                      Acting Inspector General

SUBJECT:                              Immigration Enforcement Agent Position

In the course of conducting a review of Department of Homeland Security (DHS) responsibilities
regarding juvenile aliens, we became aware of an organizational anomaly between Immigration
and Customs Enforcement (ICE) and Customs and Border Protection (CBP). Some ICE
Immigration Enforcement Agents (IEAs), primarily along the Southwest border of the United
States, almost exclusively perform alien transportation operations for and report to CBP Border
Patrol supervisors.

IEA Organizational Anomaly between ICE and CBP

Under the former Immigration and Naturalization Service (INS), Detention Enforcement
Officers (DEOs) performed transportation duties at Border Patrol stations and reported to Border
Patrol supervisors. When DHS was established, these INS operations were reorganized. The
Border Patrol moved into CBP, while enforcement operations, including DEOs, moved into ICE.
However, some DEOs, now called Immigration Enforcement Agents (IEAs), did not relocate to
ICE, but remained with the Border Patrol and continued to perform their legacy transportation
duties. They also continued to report to Border Patrol supervisors. The IEAs were never
formally detailed nor reassigned to the Border Patrol.

ICE continues to pay federal salaries and benefits for these IEAs; however, ICE DRO does not
provide daily supervision, handle employee-relations issues, or handle adverse actions for IEAs
reporting to Border Patrol supervisors. At the same time, Border Patrol supervisors lack the
authority to handle employee-relations issues or discipline IEAs who report to them.1 This has
resulted in problems for both the IEAs involved and the Border Patrol supervisors to whom they
report.

Transportation Responsibilities

Transporting apprehended aliens is a necessary function. Apprehended aliens must be
transported from the point of apprehension to the processing facility. Also, after processing,



1
    The Border Patrol and ICE also have different disciplinary schedules.
aliens must be transported from the processing facility to either the border for voluntary return or
departure or to a detention facility pending immigration proceedings. In a July 20, 2004,
memorandum, the Under Secretary for BTS determined that both ICE and CBP share alien
transportation duties.2 According to the memorandum, ICE IEAs will provide transportation
from ports of entry to detention facilities, and ICE will continue to supply IEAs to the Border
Patrol to assist with transporting aliens. According to the memorandum, CBP and the Border
Patrol are to provide transportation support at the levels that existed at the time. Interviews
during our fieldwork suggest that a clear and permanent assignment of transportation duties is
required.

Neither ICE DRO nor CBP claims these transportation duties as theirs. CBP maintains that its
job is to apprehend aliens at ports of entry or along the border area and that it needs ICE drivers
to transport the apprehended aliens from the processing facility back to the border or to a
detention facility. ICE DRO wants to use the IEAs for IEA duties, maintaining that their job is
detention and removal of aliens under final orders of removal, not transportation from the
processing facility to the border or a detention facility.

IEA Duties

The IEA position was created when the former INS DEO position was reclassified and combined
with the former INS Immigration Agent (Enforcement) position. In order to transition to a full-
performance IEA, DEOs must receive immigration law training. When the transition training is
complete, the IEA career ladder starts at a GS-5 or GS-7 entry level, depending on the level of
experience, and ends at the GS-9 level.

According to the position description, full-performance IEAs are required to spend 25 to 75
percent of their time performing two major duties: detention and deportation/transport/escort.
Detention duties include responsibilities such as detainee care, processing, supervision, and
transportation for prison pick-ups and medical or court appointments. Deportation/transport/
escort duties include responsibilities associated with processing and transporting or escorting
aliens under final orders of removal to their country of citizenship. In addition to the two major
duties, IEAs are required to perform one of five other duties for at least 25 percent of their time
as assigned by their supervisor. These duties include jail check and Institutional Removal
Program (IRP); prosecution; determining alienage and fugitive operations; operational support,
Border Patrol Criminal Alien Program (BORCAP), or law enforcement liaison; and Alien
Criminal Apprehension Program (ACAP), law enforcement agency support, multi-agency task
forces, quick response teams, or duty officer.

IEAs assigned to transportation operations with the Border Patrol may not have an opportunity to
develop experience in the areas above, may not meet the basic requirements of their position
description, and may be at a substantial competitive disadvantage when seeking promotion
opportunities at the Supervisory IEA or Deportation Officer positions.




2
 Asa Hutchinson, “Costs Associated with the Care and Custody of Aliens,” Memorandum to Robert C. Bonner,
Commissioner of CBP, and Michael J. Garcia, Assistant Secretary for ICE, July 20, 2004.
Summary
IEAs who currently report to Border Patrol supervisors need a corrected reporting chain to ICE,
or in the alternative, need to be detailed or reassigned to CBP. We also urge you to clarify the
organizational assignment of transportation responsibilities and the expected range of duties of
IEAs.

We hope our observations will be of assistance as you move forward. Should you have any
questions or concerns or if we may be of further assistance, please call me or your staff may
contact Robert L. Ashbaugh, Assistant Inspector General for Inspections and Special Reviews, at
(202) 254-4100. We expect to provide our draft report on DHS responsibilities for juvenile
aliens later this month for your review.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
